mI

231 las Si LE E-Mai :
311 Douglas Street CC Legal Briefs ail Address

Omaha, Nebraska 68102-1214 contact@cocklelegalbriefs.com
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

LORENZO WILLIAMS,
Petitioner,
vs.
STEVE KALLIS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b). being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes. and this brief contains 3796 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 27th day of August. 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska Zz. Chk,
RENEE J. GOSS Q. ( hudba ;

Notary Public V Affiant 41286

My Comm. Exp. September 5, 2023

 

 
